    U.S. Department of the Interior
    Office of Inspector General




                AUDIT REPORT

          PROGRAMS AND OPERATIONS,
                DEPARTMENT OF
          VOCATIONAL REHABILITATION,
             GOVERNMENT OF GUAM

                  REPORT NO. 98-I-335
                     MARCH 1998




i
             United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                   Washington, DC. 20240



                                            MAR20 1998
MEMORANDUM

TO:                       The Secretary

FROM:                     Robert J. Williams
                          Acting Inspector

SUBJECT SUMMARY:          Final Audit Report for Your Information - “Programs and
                          Operations, Department of Vocational Rehabilitation,
                          Government of Guam” (No. 98-I-335)

Attached for your information is a copy of the subject final audit report. The objective of
the review was to determine whether the Department of Vocational Rehabilitation carried
out its responsibilities effectively in accordance with Title 17, Chapter 41, of the Guam
Code Annotated and complied with applicable Federal laws and regulations for Federal
programs.

We found that the Department did not manage its Federal programs in accordance with
Federal regulations. Specifically, the Department provided services to ineligible clients
and clients who were not periodically evaluated to support continuation, provided services
not supported by medical recommendations, did not provide needed services in a timely
manner, inappropriately used Federal funds instead of local funds, and did not charge
personal services costs based on actual work load distribution. These conditions occurred
because the Department did not have written procedures to ensure that clients were eligible
to participate in the program and/or that their medical progress was evaluated,
medical recommendations were complied with, and program costs were properly classified
and charged to the benefiting program. As a result, the Department incurred questioned
costs totaling $826,007 for program management and an additional $3 11,152 for personal
services costs.

Based on the response from the Director of the Department of Integrated Services for
Individuals with Disabilities (successor department to the Department of Vocational
Rehabilitation), we requested additional information for the report’s five recommendations.

If you have any questions concerning this matter, please contact me at (202) 208-5745.




Attachment
                                                                        N-IN-GUA-00594


              United States Department                      of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




The Honorable Carl T.C. Gutierrez
Governor of Guam
Office of the Governor
Agana, Guam 96910

Subject: Audit Report on Programs and Operations, Department of Vocational
         Rehabilitation, Government of Guam (No. 98-I-335)

Dear Governor Gutierrez:

This report presents the results of our review of programs and operations of the
Department of Vocational Rehabilitation, Government of Guam. The objective of the
review was to determine whether the Department: (1) carried out its responsibilities
effectively, as specified by Title 17, Chapter 41, of the Guam Code Annotated, and
(2) complied with applicable laws and regulations. Our review covered Federal and local
program activities that occurred in fiscal years 1992, 1993, and 1994.

We found that the Department provided services to ineligible clients, provided services that
were contrary to medical evaluations, did not provide timely services, and inappropriately
used Federal grant funds instead of local funding. In addition, the Department incorrectly
charged personal services costs to Federal grant programs. These conditions occurred
because the Department did not have written procedures to ensure that: (1) clients were
eligible to participate in the program and/or that their medical progress was
evaluated; (2) medical recommendations were complied with; and (3) program costs were
properly classified and charged to the benefiting program. As a result, we questioned
costs of about $1 million charged to the Federal grants.

 To correct the conditions noted, we recommended that you, as Governor of Guam, instruct
 the Departmental Director to: (1) develop and implement written procedures to ensure
 applicant eligibility and client progress evaluation; (2) comply with medical evaluations
 and recommendations for determinin g client services needed; (3) ensure that funding of
‘lo&l programs is not supplanted with Federal grant’fundiriigf ‘and (4) charge program and
 personal services costs to the correct program.

On October 15, 1997, we transmitted a draft of this report to you, requesting your
comments by November 21, 1997. On November 20, 1997, the Department of Integrated
Services for Individuals with Disabilities (successor department to the Department of
Vocational Rehabilitation) delivered its response (see Appendix 3) dated November 19,
1997, to our office. On December 10, 1997, we provided the Department with requested
        information on the vocational rehabilitation cases and questioned costs discussed in the
        report.   Based on the response, which generally concurred with the report’s five
        recommendations, we requested additional information on all of the recommendations (see
        Appendix 4).

        The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
        semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
        of audit findings (Appendix l), actions taken to implement audit recommendations, and
        identification of each significant recommendation on which corrective action has not been
        taken.

        In view of the above, please provide a response, as required by Public Law 97-357, to this
        report by April 3, 1998. The response should be addressed to our North Pacific Region,
        238 Archbishop F.C. Flores Street, Suite 807; Pacific News Building; Agana, Guam
        96910. The response should provide the information requested in Appendix 4.

        We appreciate the assistance of the staff of the Department of Vocational Rehabilitation
        during the conduct of our audit.

                                                            Sincerely,




                                                            Robert J. Williams
                                                            Acting Inspector General

        cc: Director, Department of Integrated Services
               for Individuals with Disabilities
            Acting Director, Bureau of Budget and Management Research




.   .
                                                    CONTENTS

                                                                                                                               Page

INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..~........     1

        BACKGROUND .................................................                                                             1
        OBJECTIVE AND SCOPE .........................................                                                            2
        PRIORAUDITCOVERAGE              .......................................                                                  2

FINDINGS AND RECOMMENDATIONS                                      ................................. 4

        A. PROGRAM MANAGEMENT ...................................                                                               4
        B. PERSONAL SERVICES COSTS .................................                                                           12

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . . . . . .20
        2. PROGRAM COSTS AND QUESTIONED COSTS
            FOR FISCAL YEARS 1992,1993, AND 1994 . . . . . . . . . . . . . . . . . . . . .21
        3. DEPARTMENT OF VOCATIONAL REHABILITATION
            RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . .25
        4. STATUS OF AUDIT REPORT RECOMMENDATIONS                . . . . . . . . . . . . . .43




                                                          :                              .            .
                                 INTRODUCTION

BACKGROUND

The Rehabilitation Act of 1973 (U.S. Public Law 99-506, as amended) was enacted for the
purpose of assisting persons with disabilities to maximize employment, economic self-
sufficiency, independence, and integration into society through vocational rehabilitation
programs, independent living centers and services, research, and training. In order to
participate in the programs authorized by the Act, Guam was required to submit a state plan
for vocational rehabilitation services that included the designation of a state agency as the
entity to administer the plan. Guam submitted its state plan for fiscal years 1992 through
1994 on July 15,199l.

The Department of Vocational Rehabilitation (the designated state agency) was established
by Title 17, Chapter 41, of the Guam Code Annotated for the purpose of evaluating
individuals’ vocational rehabilitation potential, determining the nature and scope of services
needed, and providing needed services to eligible applicants. Pursuant to Title 17, Sections
4 1103 and 41104, of the Code, the activities of the Department are under the overall
supervision of a Director, who is advised by a Rehabilitation Advisory Council. The Council
comprises seven individuals involved in vocational rehabilitation programs.

Under the Act, the Department administers four programs (Vocational Rehabilitation
Services, Supported Employment Services, Independent Living Services for Older Blind
Individuals, and Independent Living Rehabilitation Services) for which it receives Federal
grant funds from the U.S. Department of Education. The Department also administers two
locally funded programs: the Workshop Center and Independent Living Rehabilitation
Services. For the six programs, the Department reported an average of 306 client cases
annually and receipts and expenditures of about $2.8 million and $2.4 million, respectively,
for fiscal year 1992; $3 million and $2.9 million, respectively, for fiscal year 1993; and
$3.3 million and $1.9 million, respectively, for fiscal year 1994. (The receipts and
expenditures are presented for each fiscal year in Appendix 2.)

In addition to the Guam Code Annotated, the Department is required, for Federal and related
local programs, to comply with Title 34, Chapter III, Parts 361,363, 365, and 367, of the
Code of Federal Regulations and U.S. Office of Management and Budget Circular A-87,
“Cost Principles for State and Local Governments.” In. June. 1993, the grantor. agency           .
performed a review of the Department’s operations and recommended that the Department’s
Regulations and Procedures Manual (dated October 1986) be completely revised because it
was “outdated” and contained “vague and conflicting” material. However, the Manual had
not been completely revised as of the time of our review.




                                              1
OBJECTIVE AND SCOPE

The objective of our audit was to determine whether the Department (1) carried out its
responsibilities in accordance with Title 17, Chapter 4 1, of the Guam Code Annotated and
(2) complied with applicable Federal laws and regulations for Federal grant programs. The
scope of the audit included a review of the Department’s activities that occurred during fiscal
years 1992 through 1994. Audit work was conducted at the Departments of Vocational
Rehabilitation, Administration, and Law and at the offices of five rehabilitative services
contractors. Our audit work included a review of accounting records, financial and program
reports, participant files, and other supporting documentation.

The audit was conducted, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the system of internal controls in the areas of program
management, cost allocation, and procurement to the extent that we considered necessary to
accomplish the audit objective. Significant internal control weaknesses were identified in the
areas of program management and cost allocation. These weaknesses are discussed in the
Findings and Recommendations section of this report. Our recommendations, if implemented,
should improve the internal controls in these areas. Although no significant weaknesses were
noted in the area of procurement, officials of the Department of Law and the Department of
Administration’s General Services Agency stated that the Client Authorization Form used by
the Department of Vocational Rehabilitation was “not a valid procurement document” for
obtaining supplies and services. After our review, the Director of Vocational Rehabilitation
initiated action to conduct procurement activities by means of approved Government of Guam
forms.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of
Inspector General has issued any reports that evaluated the programs and operations of
Guam’s Department of Vocational Rehabilitation.            However, an independent public
accounting firm issued a single audit report on the Government of Guam for the fiscal year
ended September 30, 1990. The report stated that (1) a written rehabilitation program was
not prepared for one client; (2) financial assistance was not solicited from other sources; (3)
eight clients did not acknowledge, by signature, the receipt of their individual written
rehabilitation program; and (4) prior approval was not obtained from the grantor agency to
purchase a capital asset. Based on our review, we determined that the Government’s actions
were sufficient to correct these deficiencies.

In addition, an independent public accounting firm issued single audit reports on the
Department of Vocational Rehabilitation for the fiscal years ended September 30,1991, and
1992. These reports stated that personal services costs were not charged to grants


                                              2
appropriately. Further, the 1992 report stated that the financial status reports were not
submitted timely and that the matching requirement for maintenance of effort was not
maintained. Based on our review, we determined that the Department did not take suffkient
action to correct these deficiencies. The single audit reports for fiscal years 1993, 1994, and
1995 did not have findings related to the areas included in the objective and scope of our
current audit.




             . .




                                              3
                FINDINGS          AND RECOMMENDATIONS

A. PROGRAM MANAGEMENT

The Department of Vocational Rehabilitation did not manage its Federal grant programs in
accordance with the requirements of the Code of Federal Regulations. Specifically, the
Department (1) provided services to clients who were ineligible and who had not been
periodically evaluated to support continuation; (2) provided services that were not supported
by medical recommendations; (3) did not provide needed services to clients in a timely
manner; and (4) inappropriately used Federal funding instead of local funding. These
conditions occurred because the Department had not developed and implemented procedures
to address these issues. As a result, we questioned costs of $826,007 that the Department
charged to the Federal program during the audit period.

Client Eligibility

Title 34, Chapter III, Section 363.3, of the Code of Federal Regulations states that an
individual is eligible for the Supported Employment Program if “the individual has been
determined to be an individual with the most severe disabilities.” (Emphasis added.) In
addition, Section 361.1 states that an individual has a severe handicap if the person is one
“who has a severe ohvsical or mental disabilitv that seriouslv limits one or more functional
capacities . . . in terms of employability.” (Emphasis added.) Also, Section 361.40 states,
“The State plan must assure that an individualized written rehabilitation program is initiated
and periodically updated for each eligible individual.” Finally, Section 363.1 l(g)(3)(ii)
requires that the individualized written rehabilitation program provide for “periodic
monitoring to ensure that each individual with severe disabilities is making satisfactory
progress towards meeting the weekly work requirement established in the individualized
written rehabilitation program.”

Based on our review of 34 client case files, we determined that 7 clients were not eligible to
participate in the Supported Employment Program and 2 additional clients were not eligible
to continue to participate because the case files did not contain the required periodic
evaluations supporting such continuation. As a result, for these nine clients, we questioned
costs of $136,897 that were incurred during fiscal years 1992 through 1994. For example,
one client’s case file contained an evaluation by a vocational/psychological psychiatrist which
concluded that the client was functioning at a “mildly retarded level” and .was “happy” with       .
his job at a fast food restaurant. Since the medical evaluation did not indicate that the client
met program eligibility requirements for “severely handicapped” individuals, we determined
that the client was not eligible to participate in the Supported Employment Program and
questioned the related expenditures of $19,265 charged to the Program from May 1993 to
September 1994.

In another example, the file for a client receiving job training from a rehabilitative service
contractor contained contractor-prepared monthly progress reports. The report for February
1993 stated that the client was “ready to work at the private sector.” Further, the file
          contained the Vocational Rehabilitation Counselor’s comment that the client did not need to
          continue job training and was “job ready.” Although the documentation indicated that
          Program participation should have been discontinued, the Counselor extended the client’s
          participation, and the client continued in the job training through September 1994. As a
          result, the Department incurred $2 1,729 in excess costs from March 1993 through September
          1994.

          Medical Evaluations/Vocational Rehabilitative Services

          Title 34, Section 36 1.3 1(b), of the Code of Federal Regulations on eligibility requires “the
          presence of a physical or mental disability which for the individual constitutes or results in a
          substantial handicap to employment; and a reasonable expectation that vocational
          rehabilitation services may benefit the individual in terms of employability.” Further, Title 17,
          Chapter 4 1, of the Guam Code Annotated states that the Department “shall, as a free public
          service, provide rehab [rehabilitation] services to qualifying handicapped individuals.” Finally,
          Title 34, Section 36 1.33(a), of the Code of Federal Regulations states, “When an individual’s
          eligibility for vocational rehabilitation has been determined, there is a thorough diagnostic
          study to determine the nature and scope of services needed by the individual.”

          Based on our review of the case files of 34 clients, we identified 8 clients who received
          services that were not supported by medical evaluations and/or received medical rather than
          vocational rehabilitation services and 14 clients for whom needed services were not provided
          timely. As a result, the Department incurred $67,479’ of questioned costs and delayed
          providing needed vocational services to eligible persons. For example:

                 - A client had received hip replacement surgery based on an authorization by a
          Departmental Counselor, who was not a physician. However, the file contained a
          recommendation from the client’s physician that an alternative medical procedure rather than
          a hip replacement should be performed. In addition, the file contained a report from the
          Department’s Medical Consultant (a physician) which stated that “medical care was not part
          of vocational rehabilitation services” and recommended that the client be referred to the
          Medically Indigent Program or the Catastrophic Illness Assistance Program, both of which
          are administrated by the Department of Public Health and Social Services. The Counselor
          said that she authorized the surgery because the client was enrolled in the Independent Living
          Program and was therefore “entitled to receive services.” The authorized costs for the hip
          replacement surgery were $24,000.
.-*   *                           ..                                              .                           .
                 - A client was identified in June 1993 as having a behavioral problem. An assessment
          in the client’s file stated, “If behavior is not modified, he [the client] would not succeed in his
          goal.” However, the client was not approved for therapeutic sessions with a psychologist
          until June 1994, or 1-year later.



          ‘We determined that the Department had incurred questioned costs of $85,278. However, to avoid duplicate
          reporting, this amount was reduced by $17,799. which had already been included as questioned costs in the
          section “Client Eligibility” in the tinding.

                                                             5
Local Program Expenditures

Title 34, Section 36 1.86(b)(l), of the Code of Federal Regulations states:

       In fiscal year 1990 and each subsequent fiscal year, the Secretary ‘reduces
       amounts otherwise payable to a State under this section for that fiscal year if the
       State’s expenditures from non-Federal sources, . . . for the prior fiscal year, are
       less than. . . (2) th e average of the State’s total expenditures from non-Federal
       sources for the three fiscal years preceding that prior fiscal year. (Referred to as
       maintenance of effort.)2

The Department did not comply with the “maintenance of effort” requirement in that it used
Federal grant funds rather than available local funds to support its Workshop Center Program.
This occurred, according to the Acting Administrative Services Officer, because there was
some “confusion” between the Officer’s employees and the Vocational Rehabilitation
Counselors on the proper use of Federal and local program funds. As a result, for fiscal years
1993 and 1994, the Department incurred a maintenance of effort deficiency of $62 I,63 1 for
not maintaining local expenditures at the level required by the grantor. Specifically, the
Department’s budget submission to the Government of Guam for fiscal years 1993 and 1994
contained an impact statement for the Workshop Center Program to support its request for
local funds, which it received. However, clients participating in the local program during this
time period were paid with funds from the Federal Vocational Rehabilitation Services
Program, with the locally appropriated funds reverting to the General Fund.

Title 34, Section 361.86(e)(l), of the Code of Federal Regulations states:

       The Secretary may waive or modify any requirement . . . if the Secretary
       determines that a waiver or modification of the State maintenance of effort
       requirement is necessary to permit the State to respond to uncontrollable
       circumstances, such as major natural disaster or a serious economic downturn.

On March 21,1994, the U.S. Department of Education advised the Department of Vocational
Rehabilitation that a maintenance of effort deficiency existed for fiscal year 1993 in the
amount of $463,949. The Department requested that the U.S. Department of Education
grant a waiver of the maintenance of effort requirement, as allowed by Section 361.86(e)( 1).
The U.S. Department of Education granted the waiver, because, according to the request,
Guam had experienced ‘lmajor natural disasters and serious economic downturn that have
caused significant unanticipated expenditures and reduction in revenue.” However, the
Department did not disclose that local funding had been provided for the Workshop Center
Program. If this information had been made available to U.S. Department of Education
officials, we believe that the officials may not have approved the Department’s request for a



ZThe Code of Federal Regulations (34 CFR 361.86) provides that Federal grant funds are subject to reduction
if local governments do not maintain local program expenditures at the same level as in prior years, as
determined by the U.S. Department of Education. This requirement is called “maintenance   of effort.”

                                                     6
waiver. Therefore, we questioned costs of $463,949 related to the maintenance of effort
deficiency. Further, during fiscal year 1994, the Department charged an additional $157,682
to the same Federal program for clients certified for the same local program, which we also
questioned.

We discussed these program management issues with a Rehabilitation Program Specialist at
the U.S. Department of Education and with the Director of Vocational Rehabilitation. The
Program Specialist said that Education’s review of operations of the Department of
Vocational Rehabilitation in 1992 found that the Department was not following medical
recommendations and was providing medical services unrelated to vocational rehabilitation.
The Director of Vocational Rehabilitation also agreed that Program funds were used for
medical rather than vocational rehabilitation services and that clients were not provided
services in a timely manner. This occurred, according to the Director, because the
Department “did not have policies and procedures for the Vocational Rehabilitation
Counselors and an effective monitoring system to ensure that vocational rehabilitation
requirements were followed.”

Recommendations

We recommend that the Governor of Guam instruct the Director of the Department of
Integrated Services for Individuals with Disabilities3 to:

        1. Develop and implement written procedures which ensure compliance with the
requirements of Title 34, Chapter III, of the Code of Federal Regulations and Title 4,
Chapter 14, of the Guam Code Annotated related to the eligibility of clients, the eligibility of
the types of services rendered to clients, and the maintenance of effort for programs that are
locally funded.

       2. Advise Region IX, U.S. Department of Education, of the questioned costs and
either resolve the questioned costs or arrange for repayment.

Department of Vocational Rehabilitation Response and Office of Inspector
General Reply

In the November 19, 1997, response (Appendix 3) to the draft report from the Director
of the Department of Integrated Services for Individuals with Disabilities (formerly the- -
Department of Vocational Rehabilitation), the Department generally concurred with the       .
two recommendations and indicated that corrective action had been or would be taken.
However, the Department provided additional comments that disagreed with certain
aspects of our finding and reserved its position pending receipt of further data on




‘The Department of Vocational Rehabilitationwas reorganized as PIE of five divisions under the Department
of Integrated Services for Individuals with Disabilities. which was created by Guam Public Law 24-16.

                                                   7
    questioned costs. Based on the response, we are requesting additional information for the
    two recommendations (see Appendix 4).

    Recommendation      1. Concurrence.

           Department of Vocational Rehabilitation Response. The Department stated that
    it had developed a Policy and Procedures Manual for Vocational Rehabilitation Services
    which was implemented in January 1996 and that the “maintenance of effort for locally
    funded programs has been resolved” with the grantor agency.

           Office of Inspector General Reply. We found that the Manual did not include
    procedures to ensure that the Department met maintenance of effort requirements for
    locally funded programs. Therefore, the Department needs to provide our office with a
    copy of policies and procedures developed to address the issue of maintenance of effort.
    Additionally, the Department did not provide documentation that the grantor agency was
    advised of and resolved the reported maintenance of effort deficiencies.

    Recommendation 2. Concurrence.

          Department of Vocational Rehabilitation Response. The Department stated that
    “upon final resolution to the draft audit report response,” it would advise the grantor
    agency of any questioned costs and resolve them as appropriate.

           Office of Inspector General Reply. On December 10, 1997, we provided the
    Department with information on the cases and questioned costs discussed in the finding,
    including client names, case numbers, time periods, and calculations of related questioned
    costs. The Department needs to provide our office with appropriate documentation
    showing that the grantor agency has been informed of the reported questioned costs for
    final disposition.

    General Comments on Finding

    In its response to the draft report, the Department provided comments that disagreed with
    certain aspects of the finding related to Recommendation 2. These comments and our
    replies are as follows:
.
           Debkent       df Vocational kehabilitaiion Respotke. With regard’to the section          ’
    of the finding on “Client Eligibility,” the Department stated that it “agree[d] that in order
    for an individual to be eligible to participate in the Supported Employment Program, such
    an individual must be determined to be an individual with the most severe disab’1lity and
    that his/her Individualized Written Rehabilitation Program (JWRP) provide for ‘periodic’
    monitoring to ensure that the individual is making satisfactory progress towards meeting
    the weekly work requirement established in the JWRP.” (Emphasis in original.) However,
    the Department further stated that it could not provide specific comments on the alleged



                                                 8
ineligible applicants and related questioned costs without information such as clients’
names or case numbers to identify and verify the audit finding.

       Office of Inspector General Reply.         We provided the Department, on
December 10, 1997, with information on the cases and questioned costs discussed in the
finding, including client names, case numbers, time periods, and calculations of related
questioned costs.

        Department of Vocational Rehabilitation Response. Regarding the section in the
finding entitled “Medical Evaluations/Vocational Rehabilitative Services,” the Department
stated that while it “agree[d] that medical evaluations play a major part in the assessment
process for determining eligibility for VR [Vocational Rehabilitation] services, ” other
evaluations must be taken into consideration and that “[t&is is the primary reason why VR
Counselors, on certain circumstances, make decisions contrary to the Department’s
medical consultant’s recommendations. ” Furthermore, under the informed choice
provision of the Rehabilitation Act of 1973, as amended in 1992, the choice of services
is made jointly by the client and the counselor. The Department also said it would “like
to withhold” its position on the related questioned costs until it received information to
identify and verify the specific cases cited in the finding.

       Office of Inspector General Reply. We agree that Vocational Rehabilitation
Counselors determine client eligibility for services, and, under the Rehabilitation Act of
1973, as amended, the choice of services is made jointly by the client and the Counselor.
However, we believe that the Counselors should adequately support (document) their
determinations and obtain approval for those determinations from their supervisors.
During our audit, we found no documentation as to why the medical consultant’s
determinations, made on the basis of diagnostic studies performed in accordance with the
requirements of Title 34, Section 361.33(a), of the Code of Federal Regulations, were not
accepted.

        Department of Vocational Rehabilitation Response. The Department said that
a l-year delay in approving vocational rehabilitation services “may have been too lengthy”
but that “circumstances beyond the control of the counselor,” such as the client being off-
island or not being able to make the appointment, existed. The Department further stated
that there were “no set timelines required by either federal or local laws” as to when
vocational rehabilitation services should be provided to consumers. The Department also
cited 34 CFR 361.4f(b)(l), which provides a 60 calendar day time frame for mal&g client
eligibility determinations but allows longer time periods for “exceptional and unforeseen
circumstances beyond the control of the agency” or when the agency “determines that an
extended evaluation is necessary for an individual. ” The Department said it would state
its position on client eligibility and medical evaluation/vocational rehabilitation services
within 90 days upon the receipt of the information requested.

       Office of Inspector General Reply. The citation from the Code of Federal
Regulations pertains to client eligibility and is not applicable to the provision of services


                                              9
to clients who have already been approved for participation in the Department’s vocational
rehabilitation programs. The 14 cases cited in the report were clients who had been
determined to be eligible for Departmental services but who were delayed at least 1 year
for approval of specific services. We believe that the clients should be reevaluated after
a reasonable time period because the clients’ situations may have changed in a manner that
could have affected their eligibility or the type of vocational rehabilitation services needed.

        Department of Vocational Rehabilitation Response. On the section of the finding
entitled “Local Program Expenditures, ” the Department did not concur that it “utilized the
maintenance of effort funds rather than available funds to support its Workshop Center
Program,” explaining that it met matching fund requirements through “local funds directly
appropriated for the VR [Vocational Rehabilitation] program. ” The Department also stated
that the Workshop Center (now called Goodwill) was a “locally funded program,” with
local funds appropriated “to train disabled individuals job skills so that they can go out to
the work force. ” The Department further stated that although it “concurs that VR
[Vocational Rehabilitation] federal funds were spent on consumers” who were at the
Workshop Center, “these expenditures were for consumers who were sent to [the
Workshop Center] for services such as vocational adjustment training, vocational
evaluation and work evaluation. ”

        Office of Inspector General Reply. In accordance with Federal guidelines,
“matching fund requirements” and “maintenance of effort requirements” are common to
Federally funded programs. A “matching fund requirement” (or “cost sharing”) means
that for each dollar provided to a program from Federal funds, the local government must
provide a certain matching percentage (usually 10 to 25 percent) from local funds. A
“maintenance of effort requirement” (or “level of effort”) means that the local government
must maintain the amount of local funding at no less than the same level as in prior years.
If the local government reduces the level of local funding provided to support a program,
a greater amount of Federal funds are required to maintain a program’s operations at the
same level as in prior years. The issue addressed in our finding is not whether Workshop
Center clients were referred for vocational rehabilitation services but whether the
Department maintained a constant “level of effort” in the Workshop Center. Our review
disclosed that, for fiscal years 1993 and 1994, funds appropriated for the Workshop Center
were not fully utilized and reverted to Guam’s General Fund, thus reducing the “level of
effort” funded by the local government.

        Department of Vocational Rehabilitation Response. TheeDepartment stated that
“confusion” concerning the maintenance of effort for the Workshop Center “was not
regarding the proper use of funds,” as stated in the report. Rather, according to the
Department, “when the auditor learned of the numerous programs being charged for
consumers at the Workshop Center, ” the question was posed “as to whether the appropriate
account number was being indicated on the authorization form[s] ’ for services to clients.
The Department further stated that it had changed its procedures “to ensure clarity in
identifying the appropriate program to be charged. ”



                                              10
       Office of Inspector General Reply. When our auditor questioned the Department’s
employees concerning the source of funding for services provided to clients of the
Workshop Center, there was some confusion on the part of the employees as to which
accounts, Federal or local, should have been charged. Because the Department charged
certain costs related to the locally funded Workshop Center to Federal grant accounts, the
Department did not maintain the level of effort required by the Federal grant requirements.

        Department of Vocational Rehabilitation Response. The Department did not
concur with questioned costs of $463,949 and $157,682 related to maintenance of effort
deficiencies in fiscal years 1993 and 1994, respectively. With regard to the questioned
costs of $463,949 for fiscal year 1993, the Department stated: “The approval to the
department’s maintenance of effort waiver request was granted [by the grantor agency] for
the justifications stated on the request. Whether or not the Federal officials were aware
of the local appropriations for the Workshop Center is another matter. ” With regard to
the questioned costs of $157,682.for fiscal year 1994, the Department stated that it used
Federal Basic Support funds for consumers participating in the Workshop Center program
for services such as vocational adjustment training, vocational evaluation, and work
evaluation and that it “can only respond when provided specific caseload numbers or
client’s name. ”

        Office of Inspector General Reply. We disagree with the Department’s statement
that “whether or not the Federal officials were aware of the local appropriations for the
Workshop Center is another matter” because the grantor agency made its determination on
the Department’s waiver request without having all of the pertinent facts. Had the grantor
agency known about the local funding that was provided for the Workshop Center but that
later reverted to the General Fund, the grantor agency’s decision may have been different.
In our opinion, it is inappropriate to use Federal funds to supplant a locally funded
program. Additionally, the Department’s statement that the “1993 Basic Support grant was
reduced by $199,321 . . . because [the Department] did not meet the criteria established
for the granting of a waiver” supports our position that the maintenance of effort
requirements were not met. Therefore, our audit findings should be considered by the
grantor agency in its decision to approve or disapprove the Department’s request for a
maintenance of effort waiver. We provided the Department, on December 10, 1997, with
information on the specific cases and our calculation of questioned costs discussed in the
finding.




                                            11
I         B. PERSONAL SERVICES COSTS

          The Department of Vocational Rehabilitation did not charge persona1 services costs to
          Federal grants based on actual work load distribution. The requirements f?r determining
          the allowability of charges for personal services are contained in Office of Management
          and Budget Circular A-87. However, the Department did not have procedures which
          ensured that charges for personal services costs were made in accordance with the Federal
          requirements.    As a result, we questioned personal services costs of $294,120 for fiscal
          years 1992 through 1994. We also questioned, for the same period, indirect costs of
          $17,032 that were applicable to the questioned direct costs, for total questioned costs of
          $311,152.


I         Employee Time Distribution

          Circular A-87, Attachment B, Section B.lO.b, states:

                Amounts charged to grant programs for personal services, regardless of
                whether treated as direct or indirect costs, will be based on payrolls
                documented and provided in accordance with generally accepted practice of
                the State, local, or Indian tribal government. Payrolls must be supported by
                time and attendance or equivalent records for individual employees. Salaries
                and wages of employees chargeable to more than one grant program or other
                cost objective will be supported by appropriate time distribution records. The
                method used should produce an equitable distribution of time and effort.

          We reviewed all payroll records, together with supporting documentation, for fiscal years
          1992, 1993, and 1994 and interviewed 20 of the Department’s 34 employees to determine
          whether the Department had correctly charged personal services costs to Federal grant
          programs.     We found that personal services costs had been incorrectly charged to the
          Federally funded Vocational Rehabilitation Services Program for all 3 fiscal years.
          Specifically:

                 - During fiscal year 1992, payroll documentation for 16 of the 20 employees
          reviewed showed that 100 percent of their time was charged to Rehabilitation Services.
          However, eight of the employees stated that they had worked on other programs. For
    . .   example, .on$ employee stated ,that she spent, only 50 percent of her .time working on       .   .
          Rehabilitation Services. Therefore, we questioned personal services costs of $11,463
          (50 percent) that were charged to the grant for this employee. Based on our review, we
          determined that for fiscal year 1992, the Department improperly charged personal services




                                                      12
      costs of $75,19g4 to Rehabilitation Services. We also questioned indirect costs of $7,377
      ($75,199 multiplied by a 9.8 1 percent indirect cost rate) applicable to the questioned direct
      costs, for total questioned costs of $82,576 for fiscal year 1992.

              - During fiscal year 1993, payroll documentation for 19 of the 20 empioyees showed
      that 100 percent of their time was charged to Rehabilitation Services. However, 13 of the
      employees stated that they had worked on other programs. For example, one employee
      stated that she spent 80 percent of her time working on Rehabilitation Services. Therefore,
      we questioned personal services costs of $6,630 (20 percent) charged to the grant for this
      employee. Based on our review, we determined that for fiscal year 1993, personal services
      costs of $93,715 were improperly charged to Rehabilitation Services. We also questioned
      indirect costs of $8,586 ($93,715 multiplied by a 9.14 percent indirect cost rate) applicable
      to the questioned direct costs, for total questioned costs of $102,281 for fiscal year 1993.

              - During fiscal year 1994, payroll documentation for all 20 of the employees reviewed
      showed that 100 percent of their time was charged to Rehabilitation Services. However, 12
      of the employees stated that they had worked on other programs. For example, one employee
      stated that she spent only 50 percent of her time working on Rehabilitation Services.
      Therefore, we questioned personal services costs of $13,482 (50 percent) charged to the
      grant for this employee. ln addition, we found that an employee who was shown as spending
      100 percent of her time working on Rehabilitation Services had not been at work because she
      had been in an accident. During her absence, the employee continued to be paid with grant
      funds. After the employee used all of her leave because of the accident, the Department
      continued to pay the employee and charge the costs to the grant. The employee subsequently
      retired. Therefore, we questioned personal services costs of $4,408 incurred while the
      employee was neither at work nor on approved leave. Also, the employee may not have been
      entitled to the payments while not on approved leave because Guam laws do not contain these
      entitlement provisions. Based on our review, we determined that for fiscal year 1994, the
      Department improperly charged personal services costs of $125,207 to Rehabilitation
      Services. We also questioned indirect costs of $1,089 ($125,207 multiplied by an 0.87
      percent indirect cost rate) applicable to the questioned direct costs, for total questioned costs
      of $126,296 for fiscal year 1994.

       In June 1993, officials from Region IX, U.S. Department of Education, conducted a program
       review and advised the Department of Vocational Rehabilitation to take appropriate action
       to ensure that all staff salaries, fkinge benefits, and administrative costs were charged to the
.*   . appropriate Federal or local programs. In response to that review, the Department, in July
        1993, implemented a time distribution sheet for all employees to complete. However, the
       Department continued to improperly charge all personal services costs to the Vocational
       Rehabilitation Services Program. Departmental officials said that the Department’s local


      90 determine the amount of questioned personal services costs for each sampled employee, we determined the
      percentage of each employee’s time that was related to Rehabilitation Services and applied that percentage to
      the total salary costs charged to the grant for each employee. We then combined the questioned costs for all of
      the sampled employees to arrive at the total questioned amount. The same procedure was used for fiscal years
      1993 and 1994.

                                                            13
budget did not include personal services costs to administer local programs. Therefore,
according to the officials, they did not charge personal services costs to local programs but
rather to the Federal program.

Recommendations

We recommend that the Governor of Guam instruct the Director of the Department of
Integrated Services for Individuals with Disabilities to:

       1, Develop and implement written procedures which ensure that personal services
costs are documented and charged to Federal grants in accordance with the requirements of
US. Office of Management and Budget Circular A-87.

       2. Advise Region IX, U.S. Department of Education, of the questioned costs and
either resolve the questioned costs or arrange for repayment.

       3. Request that the Guam Attorney General determine the propriety of the payments
made to the employee who was neither at work nor on approved leave and, if the payments
are determined to have been improper, determine whether the Department has a legal basis
to seek recovery of the funds.

Department of Vocational Rehabilitation Response and Office of Inspector
General Reply

In the November 19, 1997, response (Appendix 3) to the draft report from the Director,
Department of Integrated Services for Individuals with Disabilities (formerly the
Department of Vocatiopal Rehabilitation), the Department generally concurred with all
three recommendations and said that corrective action had been or would be taken.
However, the Department provided additional comments that disagreed with certain
aspects of our finding and reserved its position pending receipt of further data on
questioned costs. Based on the response, we are requesting additional information for the
three recommendations (see Appendix 4).

Recommendation 1. Concurrence.

        Department of Voqatiomd Rehabilitation Response. The Department stated that
it had policies and procedures in place which became effective in fiscal year 1994. The
Department further stated that because it was operating under a 3-year budget from fiscal
years 1993-1995, no costs were allocated for salaries and benefits to be paid out of the
local programs.     However, the Department said that in its fiscal year 1996 budget
submission, it requested that local funds be appropriated for salaries and benefits. The
Department stated that its staff was currently using time records to report their time
directly to the individual programs for which time is spent and that “only up to 10% of
staff spend time on programs other than VR [vocational rehabilitation]. ”


                                             14
       Office of Inspector General Reply. During our audit, our review of employee
time records for fiscal years 1992, 1993, and 1994 disclosed that personal services costs
had been incorrectly charged to the Federally funded programs.          In addition, the
Department’s response confmns our finding that charges were made to the grant programs
for personal services costs that were outside the scope of the programs for fiscal years
1993 and 1994. The Department needs to provide our office with a copy of the policies
and procedures for personal services costs that incorporate the use of time distribution
records.

Recommendation      2. Concurrence.

       Department of Vocational Rehabilitation Response. The Department said that
it “will seek resolution to the questioned costs before forfeiting any federal dollars.”

       Offke of Inspector General Reply. The Department needs to provide our office
with appropriate documentation showing that the grantor agency has been informed of the
reported questioned costs for final disposition.

Recommendation      3. Concurrence.

       Department of Vocational Rehabilitation Response. The Department stated that
it had conferred with the Attorney General’s Office regarding the propriety of payments
to the employee who was neither at work nor on leave and that it had “communicated” its
response regarding the questioned personal services costs of $4,408 to the Attorney
General’s Office.

       Office of Inspector General Reply. The Department needs to provide our offtce
with a copy of the Attorney General’s formal opinion on the propriety of the payments to
the employee.

General Comments on Finding

In its November 19, 1997, response to the draft report, the Department provided
comments that disagreed with certain aspects of the finding related to Recommendation 2.
These comments and our replies are as follows:
                         .                                              .                        ..
       ‘Depktment of Voktionh Rehabilitation Response. The Dep&et                    said thai
it is “withholding” its position regarding specific questioned costs and requested names and
“individual amounts for the 16 employees with alleged personal services costs improperly
charged” to the Rehabilitation Services Program for fiscal years 1992, 1993, and 1994.

       Office of Inspector General Reply. Based on the Department’s response, we
provided the Department, on December 10, l!I97, with the requested employee names,
time periods, and calculations of related questioned costs.



                                             15
        Department of Vocational Rehabilitation Response. The Department stated that,
in fiscal year 1993, it had sought assistance from the Department of Administration to
prepare a cost allocation plan for employees who worked for Federal grant programs other
than the Vocational Rehabilitation Services Program. However, according to the response,
the Department did not implement the cost allocation plan but instead charged all
administrative expenses directly to the program for which services were rendered. The
Department said that in fiscal year 1994, it developed a new time sheet and implemented
policies for all employees to charge their time directly to the program for which time was
spent. The Department stated that time sheets are currently “utilized on a daily basis for
all employees to charge their time directly to the program of which their time is spent.”
The Department further stated that there was “not a problem as far as charging the other
federal programs” but that “the problem was with the locally funded programs not having
funds appropriated to capture administrative salaries and benefits.” The Department
said,“This was due to the department having to operate under a three-year budget.”

        Office of Inspector General Reply. We commend the Department for including
salaries and wages in its local programs for fiscal year 1996 and subsequent years.
However, we found that the Department did not take action to make adjustments to correct
the salaries and wages that were not properly allocated between Federal and/or local
programs during fiscal years 1992, 1993, and 1994. Therefore, the Department’s records
should be adjusted to reflect what should have been charged to each program prior to fiscal
year 1996.

        Department of Vocational Rehabilitation Response. The Department stated that
it agreed that for fiscal years 1992 and 1994, one employee spent only 50 percent of her
time working on the Vocational Rehabilitation Services Program, but it also stated that it
had an agreement with the Social Security Administration for one employee to
spend 50 percent of her time working on the Vocational Rehabilitation Services Program .
and the other 50 percent on Social Security’s Disability Determination Services Program.
Therefore, according to the Department, this employee’s time was “captured accordingly. ”
The Department also stated, regarding the eight employees who said they spent tune on
other programs during fiscal year 1992, that the grantor agency told the Department in
fiscal year 1994 that “this was an audit exception.” The Department said that it
“immediately took action” to address this matter and that “this matter was corrected” with
the approval of its budget in fiscal year 1996.

  .
   .   Offxe of.lnspector Geneid Reply: We took no exception to the personal services *
costs that were charged 50 percent to the Vocational Rehabilitation Services Program and
50 percent to Social Security’s program for fiscal years 1993 and 1994. However, we
found that the employee’s time had not been allocated properly for fiscal year 1992;
therefore, we took exception to those costs.

        Department of Vocational Rehabilitation Response. Regarding the questioned
indirect costs, the Department stated, “This allegation is ambiguous and would need
further clarification to support the auditor’s findings. ’ The Department further stated that


                                             16
              the indirect cost “is captured against the program’s expenditures” and that “[bIased on the
              indirect cost rate for that year, the total is deducted and taken out at the end of the year.
              The Department further stated: “This is a function of the Department of Administration,
              Division of Accounts. The indirect cost that is captured is used to support only the
              external government agencies for their time spent on the program. ”           *

                      Office of Inspector General Reply. The Department’s statement regarding the
              manner in which indirect costs are accounted for is correct. However, once direct salaries
              and wages are questioned, the corresponding indirect costs must also be questioned because
              indirect costs are based on a percentage of direct salaries and wages. Therefore, we
              applied the applicable indirect cost rate to questioned direct salaries and wages to derive
              the amount of indirect costs questioned.

                     Department of Vocational Rehabilitation Response. The Department stated that
              the employee who spent 100 percent of her time working on the Vocational Rehabilitation
              Services Program but who had not been to work because of an accident was given work
              assignments to be completed at home “for intermittent periods between June 1994 to
              August 1994, which terminated when the employee could no longer complete her tasks
              productively as a result of the injuries she received from the accident. ” The Department
              said that the employee was subsequently placed on leave status and “was loaned additional
              leave” from her coworkers and a relative once all her leave was used.

                     Offke of Inspector General Reply. We questioned the employee’s time that was
              charged to the program between the pay periods ending June 11 to August 6, 1994,
              because the employee was neither at work nor on approved leave during this period.
              Leave that was donated from her coworkers and a relative were for different time periods
              (from August 8 to November 25, 1994, and from February 20 to March 3, 1995). In
              addition, the Department provided no documentation to support that the employee                 ’
              performed work at home. Further, as a Developmental Disability aide, the employee’s job
              duties included client interviews, job coaching and development, home visits, and client
              followup visits, none of which could have been performed by the employee from home.
              In addition, although not questioned, we believe that personal services costs charged to the
              Federal program while the employee was on donated leave may not have been proper
              because the donated leave was funded by local sources.


I   . .   *   .     .-       .     .   .   .




                                                           17
                                   OTHER MATTERS

Title 34, Subpart D, Section 80.23(b), of the Code of Federal Regulations states, “A
grantee must liquidate all obligations incurred under the award not later than 90 days after
the end of the funding period.” Of the 436 outstanding obligations, totaling $406,685,
from the Department’s encumbrance               report?  for September 30, 1992, through
September 30, 1994, we reviewed 11 obligations, valued at $111,864. We noted four
instances, totaling $54,173 (all occurring in fiscal year 1992), in which the Department
had incurred additional Vocational Rehabilitation Services Program costs for services that
were not provided within the required 90-day liquidation period. For example, the
Department entered into an interagency agreement with a local radio station to provide an
outreach program for the Department. The funds for the agreement were obligated on
September 30, 1992; however, services totaling $28,250 were not provided until 6 months
later, or 3 months after the 90-day liquidation requirement.

A U. S. Department of Education official from Region IX told us that, although he had
orally given the Department of Vocational Rehabilitation permission to carry unliquidated
obligations beyond the 90-day requirement, he requested that this issue be mentioned in
our audit report. We therefore suggest that the Department confer with Region IX
offkials regarding the carrying of unliquidated obligations beyond the 90-day requirement
to determine whether subsequent payment of those obligations could be properly charged
to the Federal funds.

Department of Vocational Rehabilitation Response and Office of Inspector
General Reply

In the November 19, 1997, response (Appendix 3) to the draft report from the Director
of the Department of Integrated Services for Individuals with Disabilities (formerly the
Department of Vocational Rehabilitation), the Department included comments on this issue
as follows:

        Department of Vocational Rehabilitation Response. The Department stated that
in fiscal year 1992, it had obtained approval from the U.S. Department of Education to
carry unliquidated obligations beyond the 90day requirement because of the nonreceipt
of invoices from the various vendors who performed services but that in fiscal year 1993                   .
and subsequent years, it had “carried over federal dollars into the subsequent year. ” As
such, according to the Department, the funds were available for obligation for an
additional year. The Department also stated that it had “gone without” any technical
assistance regarding financial matters from Region IX, Rehabilitation Services
Administration, for the past 5 years. Finally, the Department stated that in July 1997, its
offkials and those from Guam’s Department of Administration met with U.S. Department


Vhe encmbrauce repods listedimmmtsthat were set aside to pay for unfilled purchaseordersand contractsfor
goods ad servim.

                                                  18
of Education officials on revising Financial Status Reports dating as far back as fiscal year
1992.     As a result of the meeting, the issue was corrected and the reports were
restructured.

       Office of Inspector General Reply.          The Department did ’not provide
documentation supporting the approval received from the U.S. Department of Education
for the fiscal year 1992 carryover or provide documentation that this action was taken.
The Department needs to provide the substantiating documents to our office.




                                                          .




                                              19
                                                                     APPENDIX 1



              CLASSIFICATION OF MONETARY AMOUNTS


                                                 Ouestbed        Costs
                                  Federal            Local
           Findine Areas        Funds-                                     Total

A. Program Management
   Client Eligibility                $121,813      $15,084                $136,897
   Medical Evaluations                  10,288      57,191                   67,479
   Local Program Expenditures         621.631                              621.631

   Subtotal                           753,732           72,275              826,007

B. Personal Services Costs            233.364           77.788             311.152

   Total                             $987.096     %150.063               $1.137.159




                      .                            ..




                                20
                                                                               APPENDIX 2
                                                                                 Page 1 of 4



                       PROGRAM COSTS AND QUESTIONED COSTS
                         FOR FISCAL YEARS 1992,1993, AND 1994


                                                     Total         Total        Questioned
             Promams             ReceiDts            costs        Audited         costs
Federal Funds:

Vocational Rehabilitation      $5,248,109         $5,047,893    $1,975,368       $910,535
 Services

Supported Employment              130,310             83,786        76,565         76,56 1

Independent Living for
 the Older Blind                  580,380            23 1,968          2,025

Independent Living                 59.057             43.944     23Q

 Subtotal - Federal Funds      $6.017.856         $5.407.591    $2.054.188      $987.096

Local Funds:

Vocational Rehabilitation      $1,820,910         $1,065,726     $204,736         $92,872
 Services (Federal Program)

Workshop Center                   586,418            541,289       229,7 11        30,375

Independent Living                556.925             84.296        30.002         26.816

 Subtotal - Local Funds        $2.964.251         $1.691.311     $464.449        $150.063

..‘i’otaf.       a.            $8:982.109.    -$7.098.903       $2.518.637.    $1.137.159      . *




                                             21
                                                                                       APPENDIX 2
                                                                                         Page 2 of 4


                                  Program Costs and Questioned Costs
                                         for Fiscal Year 1992


                                                          Total              Total      Questioned
              Programs                 Receipts           costs             Audited       costs
    Federal Funds:

    Vocational Rehabilitation        $1,764,771        $1,687,508           $542,593      $86,248
     Services

    Supported Employment                 47,202             4,549

    Independent Living for
     the Older Blind                    193,460            78,139

    Independent Living                   17.75Q             8.000

     Subtotal - Federal Funds        $2.023.183        $1.778.196           $542,593      $86.248

    Local Funds:

    Vocational Rehabilitation          $449,647         $295,488        *   $106,970      $25,320
     Services (Federal Program)

    Workshop Center                     289,418           289,418

    Independent Living

     Subtotal - Local Funds            $739.065         $584.906            $106.970      $25.320

.    Total           m *      *      $2.762.248        $2.363.102   -   -   $649.563     $11.1.568     .




                                                  22
                                                                                  APPENDIX 2
                                                                                    Page 3 of 4


                              Program Costs and Questioned Costs
                                     for Fiscal Year 1993


                                                       Total        Total          Questioned
          Programs                 Receipts            costs       Audited           costs
Federal Funds:

Vocational Rehabilitation        $1,603,566         $2,026,754     $823,637        $559,133
 Services

Supported Employment                 39,938             39,927       37,755           37,751

Independent Living for
 the Older Blind                    193,460             67,997

Independent Living                   19.028             17.432           80

 Subtotal - Federal Funds        $1.855.992         $2.152.11Q     $861.472        $596.884

Local Funds:

Vocational Rehabilitation          $699,624          $589,902       $59,522         $3 1,728
 Services (Federal Program)

Workshop Center                     150,000            105,662      102,420          16,200

Independent Living                  281.275         19.427            7.714        7.714

 Subtotal - Local Funds          $1.130.899          $714.991      $169.656         $55.642

 Total               .           $2.986.89 1        $2.867.101   $1.031.128   *    $652.536.      -   .




                                               23
                                                                                  APPENDIX 2
                                                                                    Page 4 of 4


                                 Program Costs and Questioned Costs
                                        for Fiscal Year 1994


                                                         Total         Total       Questioned
          Programs                    Receiuts           costs        Audited        costs
Federal Funds:

Vocational Rehabilitation           $1,879,772        $1,333,631      $609,138     $265,154
 Services

Supported Employment                    43,170            39,310        38,810       38.810

Independent Living for
 the Older Blind                       193,460            85,832         2,025

Independent Living                      22.279            18.512           150

 Subtotal - Federal Funds           $2.138.681        $1.477.285      $650.123     $303.964

Local Funds:

Vocational Rehabilitation             $671,639         $180,336        $3 8,244     $35,824
 Services (Federal Program)

Workshop Center                        147,000           146,209       127,291       14,175

Independent Living                     275.650            64.869        22.288       19.102

 Subtotal - Local Funds             $1.094.289         $391.414       $187.823      $69.101

 Total           .          .:      $3.232.970        $1.868.699      $837.946    , $373,065      .




                                                 24
                                                                                                   APPENDIX 3
                                                                                                   Page 1 of 18




                                                      UFISINANI MAGA’IAHI
                                                       TERfTORlONGUAM




     Mr. Peter Scharwark, Jr.
     Senior Auditor
     U.S. Department of Interior
     North Pacific Region
     238 Archbishop F.C. Flores Street, Suite 807
     Pacific Daily News Building
     Agana, Guam 969 10

     Re: Draft Audit Report on the Programs and Operations, Department of Vocational
         Rehabilitation (N-IN-GUA-005-94)

     Pursuant to the subject matter, I am pleased to enclosed the Department of Integrated Services
     for Individuals with Disabilities (DISID) response to the findings and recommendations stated in
     the above referenced report.

     Thank you for the opportunity to comment on the report.

                                                         .-‘-Sincerely,




                                                            CARL T.C. GUTIERREZ

     Enclosures




..                         .




                                                                   25
                       Post Office Box 2950. hqana.   Guam 96910    m (67lj472-8931   9 Fax, 1671)477CUAM
                                                          APPENDIX 3
                                                          Page 2 of 18




                                             November 19, 1997


MEMORANDUM:
TO:                Director, Bureau of Budget and Management Research

A’ITN:             Chief Internal Auditor

FROM:              Director,, Department of Integrated Services for Jndividuals with
                   Disabilities

SUBJECT:           RESPONSE TO THE INSPECTOR GENERAL’S DRAFT
                   REPORT     .

Hafa Adai!

This is a response to the October 1997 draft report of the Office of the Inspection
General regarding the Department of Vocational Rehabilitation’s, Government of
Guam, federal and local activities that occurred in Fiscal Year 1992 through 1994.

Our response to the auditor’s findings and the proposed recommendations in the
draft report are as follows:



1.



      The Department provided services to seven (7) consumers who were
      ineligible to participate in the Supported Employment Program and two (2)
      additional consumers were not eligible to continue to participate because the
      case files did not contain the required periodic evaluations supporting such
      continuation. As a result, for these nine consumers, a questioned costs of
      $136,897 were incurred during fiscal years 1992 through 1994.

                                      26
                                                                APPENDIX 3
                                                                Page 3 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 2




              Generally,. we agree that in order for an individual to be eligible to
              participate in the Supported Employment Program, such an individual
                                                                             . ..
              must be determined to be an individual with the mQst severe d&&y
              and that his/her Individualized Written Rehabilitation Program (JWRP)
              provide for “periodic” monitoring to ensure that the individual is
              making satisfactory progress towards meeting the weekly work
              requirement established in the IWRP.

              However, we are not able to provide specific comment on the alleged
              ineligible applicants without specific information about their records
              such as caseload numbers or client’s names so that we can accurately
              verify the audit findings. While the single audit conducted in FY 1992
              has a list of caseload numbers, we found that they are not similar cases.
              Thus , we request that we be provided the caseload numbers or names
              of the nine consumers in order for us to review the case files of these
              consumers before we state our position regarding the questioned costs
              of $136,897 incurred during FY 1992 through 1994. Additionally, we
              also need the caseload number or the name of the client whom the
              auditor determined was not eligible to participate in the Supported
              Employment Program and questioned the related expenditures of
              $19,265 charged to the program from May 1993 to September 1994.
              As well, we also need the caseload number or the name of the client
              who was “Job Ready” but continued to received job training from
              February 1993 through September 1994. As a result, the Department
 ..       .   incurred $21,729 ip excess costs.                  .       ..               ..
              Again, we would like to withhold our position regarding the above
              questioned costs of $19,265 and $21,729 until we obtain the
              information requested on two consumers.
                          .          .             ..   .      .
2.     Medical-I



                                          27
                                                                  APPENDIX 3
                                                                  Page 4 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 3




             The Department provided services that were not supported by medical

              recommendations. As a result, the Department incurred $64,479 of
              questioned costs and delayed providing needed vocational services to
              eligible persons. Also, a client received hip replacement contrary to
              the client’s physician and department’s medical consultant’s
              recommendation. The hip replacement costs was $24,000. Another
              client who had a behavioral problem was not approved for therapeutic
              sessions with a psychologist until June 1994, or a one year delay.



              We would like to withhold our positions, regarding the questioned costs
              of $64,479 and $24,000, respectively, until we obtain additional
              information, such as the caseload numbers or names of the consumers
              identified in the findings to enable us to review and verify the alleged
              questioned costs.

             While we do agree that medical evaluations play a major part in the
              assessment process for determining eligibility for VR services, there
             are other evaluations such as unique strengths, resources, priorities,
              interests and needs, including the need for Supported Employment that
              are also considered in making the determinations. This is the primary
              reason why VR Counselors, on certain circumstances, make decisions
              contrary to the Department’s medical consultant’s recommendations.
             .Furthermore, under the informed choice provision of the Rehab Act of
              1973, as amended in 1992, ‘the choice’of VR services is made jointly          .
              by the client and the VR Counselor.

              Title 34, Section 361.42 of the Code of Federal Regulation (CFR) on
              eligibility specifies that this responsibility is vested in the State unit.
              Further, Chapter 4, page 154 of the updated VR Services Manual,
              assigns the VR Counselor the primary responsibility to make eligibility


                                         28
                                                              APPENDIX 3
                                                              Page 5 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 4

             determination.

              On the issue of client receiving medical rather than vocational
              rehabilitation services, CFR, Title 34, Section 361.48, identifies
              “physical and mental restoration services as one of the VR services
              available to its clientele. Medical services are provided to reduce or

              correct medical problems of consumers to enable to participate in VR
              programs without undue interruptions.



              The Department did not provide needed services to consumers in a
              timely manner. A client was identified in June 1993 as having a
              behavioral problem. However, the client was not approved for
              therapeutic sessions with a psychologist until June 1994, or a one year
              delay.



                     We agree that a one year delay in approving VR services in the
                     IWRP may have been too lengthy. However, there are
                     circumstances beyond the control of the counselor for such
                     lengthy delays in the delivery of services. For example, the’
                     client may have been off-island or unavailable to make
                     appointments, etc. It should be noted that with the exception of
                     processing of applications, providing VR services to consumers
                     has. no set timelines required by either federal or local laws
                     applicable to VR gervic’es.

                     Title 34, Section 361.41(b)(l) stated that “The State Plan must
                     assure that once an individual has submitted an application for
                     VR services, eligibility determination will be made within 60
                     calendar days unless -



                                         29
                                                                APPENDIX 3
                                                                Page 6 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 5

                    (i)    Exceptional and unforeseen circumstances beyond the
                           control of the agency preclude a determination within 60
                           calendar days and the individual is so notified and agrees
                           that an extension of time is warranted; or

                    (ii)   The State unit determines that an extended evaluation is
                           necessary for an individual.

                    We will state our positions on each of the above mentioned
                    findings within 90 days upon the receipt of the information
                    requested above.
                              .
3. LQsamogram



              The department did not comply with the “maintenance of effort”
              requirement in that it used federal grant funds rather than available
              local funds to support its workshop center program.



                     The Department does not concur with the finding of which the
                     department utilized the maintenance of effort funds rather than
                     available funds to support its Workshop Center Program.

                     The Rehabilitation Act of 1973, as amended, requires that states
                     provide matching f$$s for the VR program. State agencies may
                     meet the required match using a combination of cash or in-kind.
                     contributions from state and local sources. Guam’s matching
                     funds for the Basic Support Program are local funds directly
                     appropriated for the VR program.

                     A locally funded program titled Workshop Center funds was
                     appropriated for “to train disabled individuals job skills so that


                                         30
                                                                 APPENDIX 3
                                                                 Page 7 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 6

                     they can go out to the work force. There is no specific area of
                     employment that this program is limited to. It is any type of job
                     skill that a person with a disability can be trained to perform out
                     in the .employment market.” These funds although titled
                     “Workshop Center,” was not the sole funding source for
                     consumers who were undergoing services at the Workshop.
                     Basic Support funds and the Independent Living local funds were
                     also utilized concurrently for fiscal years 1992-1994 for
                     consumers at Goodwill (Workshop Center). The counselors
                     made the determination as to which program the consumers were
                     eligible for in obtaining services. Each program had its own
                     criteria for eligibility.

                     The department concurs that VR federal funds were spent on
                     consumers who were at Goodwill (former Workshop Center).
                     However, these expenditures were for consumers who were sent
                     to Goodwill for services such as vocational adjustment training,
                     vocational evaluation and work evaluation.

                     A total of $150,000 in fiscal year 1993 and $160,000 in fiscal
                     year 1994 was appropriated for the Workshop Center Program.
                     Both years funds were expended for the program with $30,658
                     and $871.00, consecutively, reverting back to the general fund
                     at the close of the fiscal years. (See Atch 1)

                     The “confusior?’was not regarding the proper use of funds, but
                     at the time of inquiry, the confusion was when the auditor
               .   . learned of the numerous programs being charged for consumers
                     at the Workshop Center, also known as Goodwill. It was
                     presumed that the sole source of funding was the account that
                     held the title of Workshop Center. The secretaries for the
                     counselors were then questioned as to why they were charging
                     accounts other than the Workshop Center Program account.
                     That posed the question as to whether the appropriate account
                     number was being indicated on the authorization form. Their


                                         31
                                                               APPENDIX 3
                                                               Page 8 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 7

                    response was that the account number was\ provided by the
                    department’s Fiscal Office. When questioned, the Acting AS0
                    informed the auditor that the Counselor’s secretaries did not
                    decide which program to identify on the authorization form
                    without the counselor informing them as to which program to
                    charge.

                    This problem was corrected to ensure clarity in identifying the
                    appropriate program to be charged. The current practice is for
                    the counselor to identify the program by name, for which
                    services are to be charged to. The program’s title is then typed
                    on the authorization form and forwarded to the Fiscal Office
                    where the Accounting Technician types the coinciding account
                    number onto the authorization form.

                    Furthermore, DVR was $199,321 short of matching the fiscal
                    year 1992 maintenance of effort requirement. As a result,
                    DVR’s 1993 Basic Support grant was reduced by $199,321.
                    DVR’s request for a waiver was denied because it did not meet
                    the criteria established for the granting of a waiver request. (See
                    Atch 2)



              Questioned costs of $463,949 related to the maintenance of effort
              deficiency for fiscal year 1993.


                                                                              ,

                    The department does not concur with this fmdmg. The
                    approval to the department’s maintenance of effort waiver
                    request was granted for the justifications stated on the request.
                    Whether or not the Federal officials were aware of the local
                    appropriations for the Workshop Center is another matter. As
                    mentioned earlier, the Basic Support federal dollars are matched


                                        32
                                                                   APPENDIX 3
                                                                   Page 9 of 18


MEMO: Director, BBMR (Respqnse to IG’s Draft Report)
November 19,1997
Page 8

                     with direct cash appropriated from the general <fundspecifically
                     for the program. The department fell short in meeting its MOE
                     from local expenditures from the VR local matching funds and
                     no other locally funded programs. (See Atch 3)

                     In response to the additional amount of $157,682 of questioned
                     costs charged to the federal program for fiscal year 1994, for
                     consumers certified for the same local program. The department
                     utilized federal Basic Support funds for consumers participating
                     in the Workshop Center Program for services such as vocational
                     adjustment training, vocational evaluation and work evaluation.
                     However, the department can only respond when provided
                     specific caseload numbers or client’s name, should there be a
                     specific allegation as to the appropriateness of the service/s
                     provided totaling this amount.



       1.     Develop and implement written procedures which ensure compliance
              with the requirements of Title 34, Chapter III, of the Code of Federal
              Regulation and Title 4, Chapter 14, of the Guam Code Annotated
              related to the eligibility of consumers, the eligibility of types of services
              rendered to consumers, and the maintenance of effort for programs that
              are locally funded.



                .   -The Policy and Procedures Manual for VR services was
                     developed and kthmitted through the locai adjudication process
                     and implemented in January 1996. (See Atch 4)

                     The maintenance of effort for locally funded programs has been
                     resolved with RSA. This is discussed in detail under the “local
                     program expenditure.”



                                          33
                                                                APPENDIX 3
                                                                Page 10 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 9

      2.     Advise Region IX, U.S. Department of Education, of the questioned
             costs and either resolve the questioned costs or arrange for payment.



                     Upon final resolution to the draft audit report response, we will
                     advise RSA IX of any questioned costs, and resolve them, as
                     appropriate.

B. Personal Service Costs

              Findings:
              The department withholds its position respectively, regarding the
              total questioned costs of $311,152 of direct and indirect costs for
              fiscal years 1992 through 1994.

              The Department of Vocational Rehabilitation did not charge personal
              services costs to Federal grants based on actual work load distributions.
              As a result, a total of $311,152 of direct and indirect costs was
              questioned for fiscal years 1992 through 1994.



                     The department sought the assistance of the Department of
                     Administration, Division of Accounts in fiscal year 1993, to
                     prepare a cost allocation plan for the department’s employee’s
                     who worked under a separate federal program, other than VR.
                     At that time, a decision was made, that the departmentwould not *
                     be implementing a cost allocation plan, but instead would charge
                     all administrative expenses directly to the program from which
                     services are rendered. In Fiscal year 1994, a new time sheet
                     was developed and policies implemented for all empIoyees to
                     charge their time directly to the programs for which time is
                     spent. .


                                          34
                                                              APPENDIX 3
                                                              Page 11 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 10

                    There was not a problem as far as charging <theother federal
                    programs. However, the problem was with the locally funded
                    programs not having funds appropriated to capture administrative
                    salaries and benefits. The department submitted requests to modify
                    the existing local program accounts to accommodate these
                    expenditures. There was no action taken, however, the department
                    was advised by their Budget Analyst from the Bureau of Budget
                    and Management Research, that the request for changes to the
                    existing local appropriations would only be entertained during the
                    submission.ofthe department’s next budget request to the Bureau
                    and to the Legislature which was for fiscal year 1996. This was
                    due to the department having to operate under a three-year budget,
                    which was for fiscal years 1993 to 1995. As such, the department
                    incorporated this request to appropriate funds in salaries and
                    benefits in their fiscal year 1996 and all subsequent budget
                    document submissions. Time sheets are utilized on a daily basis
                    for all employees to charge their time directly to the program of
                    which their time is spent. (See Atch 5)
                                                                          :-
       Findine:
             During fiscal year 1992, payroll documentation ‘for 16 of the 20
              employees reviewed showed that 100 percent of their time was charged
              to Rehabilitation Services. However, eight of the employees stated that
              they had worked on other programs. For example, one employee stated
             that she spent only 50 percent of her time working on Rehabilitation
              Services. Therefore, a questioned cost for personal services of
              $11,463 (50 percent) that was charged to the grant for this employee was
             ‘iden@ed. Based on the review, it was determined that the Department        .
              improperly charged personal services costs of $75,199 to Rehabilitation
              Services. In addition, the amount of $7,377 of indirect costs,
              applicable to the questioned direct costs, for a total of $82,576 for
              fiscal year 1992.




                                         35
                                                                  APPENDIX 3
                                                                  Page 12 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 11

                    The department concurs with the finding that one employee spent
                    only 50% of her time working on Rehabilitation Services. DVR
                    has an agreement with the Social Security Administration for one
                    employee to spend 50% of her time working on the VR services
                    program and the other 50% of her time is spent on the Disability
                    DeterminationServices Program, which is another 100% federally
                    funded program under DVR’s purview. This employee’s time and
                    salary are captured accordingly. VR funds are not used to pay for
                    more than 50% of her salary. (See Atch 6)

                     As for the eight employees who stated that they spent their time on
                     programs other than VR during fiscal year 1992. The department
                     was advised in fiscal year 1994, by a representative of the RSA
                     Region IX Grantor Agency Office, that this was an audit exception.
                     The department immediately took action to address this concern.
                     The delay for the corrective action was due to the department
                     having to operate under a three-year budget from fiscal years
                     1993 to 1995. This matter was corrected in the approval of the
                     department’s budget request in fiscal year 1996.               (See
                     attachment 5)

                     We are withholding our position regarding the questioned
                     costs of $75,199 charged to Rehabilitation Services. The
                     department requests that specific’ names and the individual
                     amounts for the 16 employees with alleged personal services
                     costs improperly charged to the Rehabilitation Services program,
                     be provided in order for the department to fairly respond to the
                     individual allegations.

                     As for the questioned indirect costs of $7,377 for fiscal year
                     1992. This allegation is ambiguous and would need further
                     clarification to support the auditor’s fmdings. The department
                     has no control of the amount of indirect costs taken out. The
                     indirect cost is captured against the program’s expenditures.
                     Based on the indirect cost rate for that year, the total is deducted


                                          36
                                                                  APPENDIX 3
                                                                  Page 13 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19.1997
Page 12

                    and taken out at the end of the year. This is *afunction of the
                    Department of Administration, Division of Accounts. The
                    indirect cost that is captured is used to support oniy the external
                    governmental agencies for their time spent on the program.



             During fiscal year 1993, payroll documentation for 19 of the 20
             employees showed that 100 percent of their time was charged to
             Rehabilitation Services. However, 13 of the employees stated that they
             had worked on other programs. For example, one employee stated that
             she spent 80 percent of her time working on Rehabilitation Services.
             Therefore, there was a questioned personal services costs of $6,630
             charged to the grant for this employee. For fiscal year 1993, it was
             determined that a total of $93,715 of personal services costs were
             improperly charged to Rehabilitation Services. The auditors also
             questioned indirect costs of $8,586 of indirect costs, for a total questioned
             costs of $102,281 for fiscal year 1993.



                    The department respectively withholds its position regarding
                    the questioned personal services costs of $93,715. The
                    departmentis requesting for the names of the 13 employees and the
                    titles of the other programs worked. In addition, the department is
                    requesting for the name of the employee alleged to have spent only
                    80 percent of her time working on Rehabilitation Services with a
                    questionedpersonal services costs of $6,630 charged to the grant,
                    in order to respond to these allegations.

                    As for the indirect costs of $8,586 in question, this questioned cost
                    is ambiguous and the department requests further clarification to
                    support the auditor’s findings. The indirect cost is captured against
                    the program’s expenditures. The department has no control of the




                                         37
                                                                APPENDIX 3
                                                                Page 14 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 13

                    amounts captured at the close of the fiscal year. This is a function
                    of the Department of Administration, Division of Accounts. The
                    in&ect cost that is captured is used to support only the external
                    govemmental agencies for their time spent on the program.



              During fiscal year 1994, payroll documentation for all 20 employees
              showed that 100 percent of their time was charged to Rehabilitation
              Services. However, 12 of the employees stated that they had worked on
              other programs. For example, one employee stated that she spent only
              50% of her time working on Rehabilitation Services, therefore a
              questionablecost of $13,482 was identified as been charged to the grant
              for this employee. Based on the review, a total of $125,207 was the
              alleged total of personal services costs improperly charged to the
              Rehabilitation Services program.



                     The department withholds its position regarding the 12
                     employees who stated that they had worked on other
                     programs. The department is requesting for names and individual
                     amounts which was used to determine the total questioned
                     personal services costs in order to fairly support a qualified
                     response to the individual allegations reasonably.

                     The department concurs with the fmdiig that one employee
                     spent only 50% of her time working on the Rehabilitation
                     Services program. The department has an agreement with the
                     Social Security Administration regarding this matter. This
                     employee has a dual responsibility of 50% of her time spent and
                     charged to the VR Basic Support Program and another 50% of
                     her time is spent and charged to the Disability Determination
                     Services Program which is 100% federally funded by the
                     Department of Health and Human Services. (See Atch 7)


                                          38
                                                               APPENDIX 3
                                                               Page 15 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 14




             Questioned personal services costs of $4,408 for the employee who was
             neither at work or on approved leave.



                    The employee mentioned as spending 100 percent of her time
                    working on Rehabilitation Services yet had not been to work
                    because of an accident, was given work assignments by her
                    immediate supervisor, to be completed at home. This was only for
                    intermittent periods between June 1994 to August 1994, which
                    terminated when the employee could no longer complete her tasks
                    productively as a result of the injuries she received from the
                    accident. Subsequently,the employee was placed on leave status.
                    When she exhausted all her annual and sick leave, she was loaned
                    additional leave hours Corn other co-workers within the
                    department who offered their leave via the Government of Guam
                    leave sharing policies and procedures. Later, the employee’s
                    brother utilized his excess leave to can-y her through till the
                    effective date of her disability retirement. (See Atch 8)



       1.     Develop and implement written procedures which ensure that personal
              services costs are documented and charged to Federal grants in
              accordance with the requirements of U.S. Office of Management and
              Budget circular A-87.



                     The department has policies and procedures in place which were
                     made effective in fiscal year 1994. The problems encountered
                     in the implementation process, was due to the three-year budget
                     that the department was operating under, which did not


                                          39
                                                               APPENDIX 3
                                                               Page 16 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 15

                     accommodate for salaries and benefits to be paid out of the local
                     programs.      As stated earlier, this was corrected in the
                     submission of the fiscal year 1996 budget documents. The staff
                     of the department are now utilizing time records to report their
                     time directly to the individual programs for which time is spent.
                     There are only up to 10% of staff who spend time on programs
                     other than VR. (See Atch 5)



       2.     Advise Region IX, U.S. Department of Education, of the questioned
              costs and either resolve the questioned costs or arrange for repayment.



                     The department will seek resolution to the questioned costs
                     before forfeiting any federal dollars.



       3.     Request that the Guam Attorney General determine the propriety of the
              payments made to the employee who was neither at work nor on
              approved leave and, if the payments are determined to have been
              improper, determine whether the Department has a legal basis to seek
              recovery of the funds.



                     The department has conferred with the Attorney General’s Office
                     concerning this matter. The department’s response to the
                     questioned personal services costs of $4,408 for this employee
                     was also communicated to the AG’s Office.

OTHER MATTERS (p. il)



                                         40
                                                             APPENDIX 3
                                                             Page 17 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 16

      In regards to the obligations which incurred beyond the 90 days after the end
      of the funding period, the following explanation is provided:

      In Fiscal Year 1992, the department did obtain approval from U.S. DOE to
      carry unliquidated obligations beyond the go-day requirement due to non-
      receipt of invoices from the various vendors who performed services.
      However, in Fiscal ‘iear 1993 and all subsequent years, the department had
      carried over federal dollars into the subsequent year. As such, the funds were
      available for obligation for an additional year. As far as the agreement
      between DVR and KGTF, the funds were obligated on September 30, 1992,
      however, payment was made in increments upon delivery of services. One
      of the delayed service was the production of the annual reports for the
      department. The department was not pleased with the draft reports and
      returned them to the vendor for additional information to be included. As
      such, payment was rendered when the final product was delivered to the
      department’s satisfaction in accordance with the agreement.

      The Department of Vocational Rehabilitation has gone without any technical
      assistance regarding financial matters from the USDOE/RSA Region IX
      Office for the past five years. The Financial Specialist position at Region IX
      was recently filled by Mr. Joe Pepin in February 1997.

       Furthermore, in July 1997, Mr. Joseph Cameron, DVR Director, Rita
       Sotomayor, DVR Administrative Services Officer and Peter Aguon,
       Accountant, Department of Administration, Division of Accounts, met with
       Financial Specialists from the Central and Regional Offices of the U.S. DOE,
       Rehabilitation Services Administration, in Washington, D.C., to revise SF
       269 Financial Status Reports dating as far back as fiscal year 19%. The
       department was advised that they were reporting the match incorrectly and
       instead had been overmatching the federal grant dollars in addition to being
       penalized for not meeting the maintenance of effort. These issues were
       corrected and the reports restructured. (See Atch 9)

In conclusion, we would like to express our appreciation for the opportunity to
respond to the draft audit report.


                                         41
                                                                   APPENDIX 3
                                                                   Page 18 of 18


MEMO: Director, BBMR (Response to IG’s Draft Report)
November 19,1997
Page 17

Those issues needing further clarification will be responded to within 90 days from
receipt of the information. Mr. Albert T. San Agustine, Acting VR Administrator,
for the Division of Vocational Rehabilitation, will be responsible for ensuring that
implementation and action is completed in a timely manner.

Please feel free to contact Mr. San Agustine at (671) 475-4636/7, if you have any
questions or if you would like to discuss the response further.




                                                 J83EPH ARTERO-CAMERON
                                                 Director

9 Attachments
as stated
     [ATTACHMENTS   NOT INCLUDED   BY OFFICE   OF INSPECTOR   GENERAL.1




                                          42
                                                                               APPENDIX 4



            STATUS OF AUDIT REPORT RECOMMENDATIQNS


Finding/Recommendation
Reference                status                       Action Required

          A.1            Management    Provide a copy of the policy and
                         concurs;      procedures relating to the maintenance of
                         additional    effort and of grantor agency resolution of
                         information   the maintenance of effort deficiencies for
                         needed.       locally funded programs.

      A.2 and B.2        Management    Provide documentation that Region IX,
                         concurs;      U.S. Department of Education, has been
                         additional    advised of the questioned costs and the
                         information   target date to either resolve the questioned
                         needed.       costs or arrange for repayment.

          B.l            Management    Provide a copy of policy and procedures
                         concurs;      relating to personal services costs.
                         additional
                         information
                         needed.

          B.3            Management    Provide a copy of the Guam Attorney
                         concurs;      General’s opinion regarding payments
                         additional    made to the employee who was neither at
                         information   work nor on approved leave.
                         needed.




                                       43
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


 Sending written documents to:                               Calling:


                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                    Outside the Continental United States


                                    Caribbean R&on

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                               North Pacific Retion

U.S. Department of the Interior                       (700) 550-7428 or
Office of Inspector General                           COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
      -
    :     Toll Free Numbers:
    :      l-800-424-5081           D
    :      TDD l-800-354-0996
    :                               E
   -:                               5
   :.     FIX/Commercial Numbers:
    a      (202) 208-5300
  :        TDD (202) 208-2420       f
  :                                 :
  :
  :
  :
           HOTLINE i
  :       1849 C Stree& N.W.
  :       Mail stop 5341
  3       Washington, D.C. 20240
 I
 :
 :
 :
 :
 :
 :
 :
:-
 -
 ?........ .
